No. 20-__
IN THE

~upreme <!Court of tbe Wniteb ~tate~
ID ENIX PHARMACEUTICALS LLC AND UNIVERSITA DEG LI
STUD! DI CAGLIARI,

Petitioners,
V.

GILEAD SCIENCES, INC.,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Petition for a Writ of Certiorari in Idenix Pharmaceuticals

LLC and Universita Degli Studi di Cagliari v. Gilead Sciences, Inc., No. 20-__, was
served via electronic mail on all parties required:

E. Joshua Rosenkranz
& SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5000
jrosenkranz@orrick.com
ORRICK, HERRINGTON

Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

Date: September 21 , 2020

